                             NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230




     OFFICE OF
 INSPECTOR GENERAL




MEMORANDUM


Date:          January 2, 1997



                                                 rn
To:            I96040023

From:      J-L                   Special Agent

                                                            1
                                                      I:[




                                                                     -
Via:         -
             -flpecial                 Agent-in-Charge

Re:             Resolution of Case


O n April 18, 1996, we received an allegation that4                    [O posed as an NSF
program manager to graduate students and distributed documents bearing the NSF name,
seal, and address without authorization from NSF. During our subsequent investigation,
          (who is not an NSF employee) admitted that he posed as an NSF program officer
by creating documents and an identification badge, but denied ever attempting to defraud
anyone using this guise. Further -investigation substantiated that              had never
received any money, favors, or services from anyone in return for any actions he may have
promised while acting under the guise of an NSF program manager.

O n November 21, 1996, our office sent a letter to the U.S. Attorney's Office (USAO) in
Atlanta, GA seeking assistance in resolving this case. To date the USAO has not responded
to this letter or our repeated follow-up telephone calls. Due to this lack of response, our
office has concluded that, at this time, the USAO does not have the resources to prosecute
this' case.

This case is closed.
                         \
                                         Investigation Report

                                        Case No. I96040023


    -
    I.     Violations

    Based
    - -
          on the evidence gathered during this investigation, we-.have      -
                                                                    - determined thq
                                                                                       'cnowingly and
    intentionally committed the following violations:

    1.     Possessed an imitation National Science Foundation identification card in violation
           of 18 U.S.C. 5 701, Possession of a False Identijication Card.

    2.     Falsely portrayed himself and acted as an officer of the National Science Foundation in
           violation of 18 U.S.C. 5 912, Falsely Pretending to be an Oflcer or Employee of the
           United States.

    3.     Fraudulently affixed the seal of the National Science Foundation to two documents he
           fabricated, a false identification badge, a sign, and a shirt in violation of
           18 U.S. C. 5 101 7, Government Seals Wrongfully Used.


    -
    II.    Backmound: The National Science Foundation

    The National Science Foundation (NSF) is an independent federal agency that was created in 1950
    to provide financial and other support for research, education, and related activities in science,
    mathematics, and engineering. Annually, NSF designates approximately $2.5 billion for over
    18,000 individual grants.


    -
    111. Basis for Investhation

    On April 18, 1996, our office received two documents, bearing the NSF seal, name, and address,
    from an NSF program manager who suspected their authenticity. The documents, entitled,
    "Educational Grants for Students in the Mathematical and Physical Sciences" and "Master,
    Doctoral, and Post-Doctoral Educational Research Application Cover Page* had been sent to the
    NSF Program Manager by a graduate student at Georgia State University, who alleged that he
I
              provided the documents to the graduate student. The complainant further alleged that
               claimed to be an NSF employee in charge of a grant review committee, and had
    authorized a $60,000 NSF fellowship award for the complainant.

    Our office determined that            was not employed by NSF and that the documents he gave
    the complainant were created and distributed without NSF's authorization. Under the authority of
    the Inspector General Act', we investigated the possibility of                            impersonating an NSF
b   program officer.


    -
    IV.      Investipative Findin~s

    Based on - -   -.    . own admissions2, statements by the complainant and witnesses, and
    documents provided to us by the complainant and witnesses, we conclude that, since August
    1995,    - _----- has impersonated an NSF program officer.              accomplished this
    impersonation by:

                      Stating to several people that he was employed by NSF as a program
                      officer.

                      Creating and displaying a false identification badge bearing his
                      photograph, the NSF name, and the NSF seal.

                      Creating and distributing documents bearing a false NSF letterhead with
                      the NSF name, seal, and address.

                      Creating and distributing documents falsely associating the NSF name
                      with his name.

                      Creating and displaying (to the public) a sign on his residence bearing
                      the NSF name and seal.

                      Producing, displaying, and distributing at least two shirts bearing the
                      NSF name and seal.


    v-
    -                        Admissions and S u ~ ~ o r t i Witness
                                                            ng      Statements
                                             --
    Our office determined that ' - -     -ias never been employed by NSF, participated in an NSF
    panel review, or even applied for funds from NSF.             confirmed this and stated in his
    affidavit [see Attachment 21:

             I have never worked for the National Science Foundation, any subcontractor employed by the
             National Science Foundation, any grantee receiving funds from the National Science Foundation,

    '   Inspector General Act of 1978, us amended, 5 U.S.C.app. (1994).
    z            : was interviewed by Special Agen                 NSFOIG, on June 3, 1996 at the State of Georgia
    Department of Corrections Probation Office Iocated at 7741 Roswell Rd., Ste. 213, Atlanta. GA. During this
    voluntary interview1             signed 10 affidavits and 7 documents (which were used as exhibits with these
    affidavits).
                   or any academic or research institution affiliated with the National Science Foundation... I have
                   never applied for any federal grants or any federal contracts.
I
I
    Furthermore,            acknowledged that he has never earned any undergraduate or graduate
    degrees, worked as a paleontologist (or worked for any paleontologists), or submitted any articles
    to be published. As he stated in his affidavit [see Attachment 21:

                   I do not have any undergraduate or graduate degrees. I have never been employed as a
                   paleontologist. I have never received compensation as acting in the capacity of a paleontologist
                   or a research assistant. I have never published any articles in any journals, magazines, or
                   newspapers.'

    Regardless of these facts,             impersonated an NSF program officer for nearly one year.
    -- -
            ? stated in his affidavit [see Attachment 21:


                   I have told people that I work for the National Science Foundation.. . I started impersonating
                   an NSF Program Officer in August 1995.

                xplained that he wanted to impress people and that it was his fantasy to be a respected
    scientist. However, he denied ever using this false identity to defraud a n y ~ n e . ~

    The False NSF ~dentificationBadge

    A.i.--      confessed to possessing a false identification badge bearing a color photograph of
                     3
    himself, his name, the NSF name and seal,) and the term "GS-9" .                acknowledged that
    the term GS-9 was related to federal employees' status but stated he did not specifically know how
    it was related),          stated in his affidavit [see Attachment 21:

                   I was in possession of a fraudulent identification badge bearing the National Science ~oundation
                   name and seal. I had this to further my impersonation of a National Science Foundation
                   program officer. I no longer have this identification badge.

                 {aimedthat he had asked a friend of his to make the badge (based on information,
    graphics, and a photograph             ,: had given him) and that this friend produced the badge and
    gave it to -          in November or December 1995. He denied ever wearing the badge in
    public5 or using it to gain access to places normally restricted to the public and stated that this was


       A witness provided our office with drafts of articles that were allegedly created bj                     lrad
    requested that this witness proofread the articles before he submitted them to various journals. The complainant has
    also made similar allegations.

             The complainant stated thar    ''.
                                                  -- .   ---ver asked for compensation for the supposed $60,000 NSF fellowship.

        Both the complainant and a witness confirmed the fact that            possessed an identification card matching the
    above description. However, contrary to                contention that he never wore it in public, the complainant
    alleged that he had seen           wear it to a professional baseball game and a witness claimed tha:            had
    worn it when they had attended the                                       in Atlanta, GA.
                                                                 :contends that he disposed of
the only false identification badge he has ever possessed.
the badge in April 1996 because he realized he was wrong to possess it.

The False NSF Documents
                                                                                                                       2nd
In January 1996,             created false NSF letterhead bearing the NSF name
address. Also, the letterhead listed a telephone number      istered to NSPand
name under a section entitled, "Program Officers".           e  admitted in his affidavit [see
Attachments 2 and 31 :                                                                                                       I
         The document labeled "Exhibit A" and bearing my initials is fraudulent. I have made this
         document with the intent to further my impersonation of an NSF program officer. I created this
         document and accept responsibility for it ... I made this document in January 1996.

            laced information rega-J'n" NqF fellowships on this false letterhead, and gave it to
the complainant that same month              admitted that he copied, verbatim, an explanation
used in a 1994 NSF document to complete m ~ informational
                                             s             sheet.'

            admitted that he created a false NSF fellowship application (bearing the NSF name and
 seal), and gave it to the complainant along with the informational sheet on false letterhead. As
            admitted in his affidavit [see Attachments 2 and 31:

                                                                                     .
          I recognize the document labeled "Exhibit Bn... and it is entitled, "Master, Doctoral and Post-
          Doctoral Educational and Research Funding Application Cover Pagen.. The document entitled
          'Exhibit Bn and bearing my initials is fraudulent and I made the document to further my
          impersonation of a National Science Foundation program officer.

           explained that he J i A not intend to mail this document to NSF but he wanted
 complainant to believe that he             was assistino him in obtaining an NSF fellowship.
 However, contrary to the complainant s s~dtement:            denied telling complainant that he
 had been awarded an NSF fellowship.



   We determined that this telephone number was registered tr


              Aaimed that the document is entitled, "Information Bulletin for Scientists --" "--:----sn and that he
 requested and received this document from NSF sometime in late 1994. According to                   .re scanned the NSF
 seal directly from this document into his computer to make both the document labelea C N X I U I ~n n and "Exhibit B".

              created both the document labeled "Exhibit An and "Exhibit Bn using d        -
                                                                                           '---'-
                                                                                                vare program on a
computer at                                                              According t,           P c ~ ( r n n n r 1the NSF
seal directly from this 1994 NSF oublication into a computer to create both of these documents.
                                                                                                                 las
employed   a
                                      tom September 30, 1995 to January 26, 1996.

  According to the complainar;            gave him these documents on a computer disk in March 1996, and asked
                                     nard copy to him. The complainant claimed that. approximately two weeks
the complainant to return a co..~pi~~ea
I                                                                                                                        :etts
                also drafted a fake letter addressed           tt


                            )             stated in his affidavit [see Attachments 2 and 31:

            I have read the document labeled "Exhibit Cn and I have initialed and dated this sticker... This
            document is fraudulent and I created it with the intention of furthering my impersonation of an
            NSF program officer.

    Howeve                                                                                            that
                             acknowledged that he has never met or spoken with
                   would not know who he was, and that he did not intend to mail the lercer.
    3a1u 11t: created and printed this letter on March 14, 1996 on the co~-'~;nant'<    personal computer
    and in complainant's presence. He confirmed that the letter listed                  IS the author and,
    underneath his name, it             ''Rnqrd Member- National Science BoardIN YP " . In addition, the
    onmnloinnnt claimed tha*
                                              "-'---'- '-tl ,Iseveral occasions) that he had spoken with
                   ind that, because of hi!                  influence, the complainant had been awarded
    an NSF fellowship.

    Other Documents and Acts Aidin1                                 in~ersonation

    In September 1995,                 fabricated a fraudulent document entitled, "Personality Type
    Indicator and Psychological Analysis Results for

                                                                                                                 --
    stated in his affidavit [see Attachments 2 and 31:

            I have read the document labeled "Exhibit D" and I have initialed and dated the sticker.
                              :- --.:.l->
                                              ""--sonality Type Indicator and Psychological Analysis Results for
                                                   . This document is fraudulent and I created it with the intenuu~lUL
            I I I U U I ~ I I I Y ~ C I I IWI OeLter and relieving my depression, furthering my impersonation of a
            N 9 t i ~ n s l Qrience Foundation program officer and to impress my then girlfrienc




    The letterhead nf the document (which                admitted to creating) consists of the name and
    logo of the                                  I". 'l'hough the document describes a psychological
    evaluation for            i supposeu luar government securitv clearance.              confessed that
    he has never had a tederal security clearance. However              :gave a copy ul the letter to his
    girlfriend in November 1995 to hrther his impersonation or an lvjF program officer. He averred
    that she was the only person he had given it to.




    after giving the disk back to                   stated that he had processed the application at NSF and that the
    complainant would be receiving a $60,000 fellowship.
    1
                    stated that he used a compi                                 o create this documen            also stated
    that, in reality, his only connection to th~                               i,located at
    was that he repaired one of their employee's                    )       laptop computer sometime in 1995 (he could not
    recall when).
              also admitted to creating and distributing a resume bearing false information about his
    association with NSF. I ' As           tated in his affidavit [see Attachments 2 and 31:

            I have read the document labeled "Exhibit E" and I have initialed and dated this sticker... Most
            of this document is fraudulent, including the job description entitled, "Co-Director for
            Geosciences Directorate, National Science Foundationn. I created this document with the
            intention of furthering my impersonation of a National Science Foundation program officer and
            to impress my then girlfriend,                  .                                                             I


            e said that the only person he gave it to was his girlfriend and that he never used this
    resume to obtain employment.

              created a grant guide in December 1994, entitled, "An All Purpose Guide to Obtaining
    Grants: Procedures. Techniques, and Tips, NSF-Paleontology Research Institute, ONSF-ICDP
    Project 1993".             stated in his affidavit [see Attachments 2 and 31:

            I have read the document labeled as "Exhibit F" and I have initialed and dated this sticker... I
            created this document for my own benefit if I ever wanted to apply for a grant. I also created
            this docui       " --"--my impersonation of a National Science Foundation program officer and
            to impres:               This document was made without the authorization or knowledge of the
            National sclence rounaation.

              explained that when he began to impersonate and NSF program officer, he changed the
    cover page of this document to reflect his supposed association with NSF. However, he could not
    remember when he changed the cover page. According to him, he only distributed this document
    to two people.

              admitted to creating fraudulent documents showing his supposed grant funding from
    federal agencies and private sources." He acknowledged that all of the information in this
    document is fraudulent and stated in his affidavit [see Attachments 2 and 31:

                                                xhibit Gn and I have initialed and dated the sticker... I gave
                                               -
             I have read the
            this document t,                    that same month to impress her about research grants I was
            supposedly working on.. . I have never received a grant from any federal or private entity.



    .. I.a--    stated he produced this resume on a computc                             ,r (using Microsoft Word) in
    February or March 1996.

                  stated that the document is dated March 23, 1993, but it was not drafted until December 1994. He
    explained that the document was dated 1993 because this is when he took notes for the creation of this guide. He
    claimed to have created this document on a computer in the student computer lab while attending


                      ~ e dhe made this document at                          r in October 1995. The document lists this
    trauaulent mrormation under the following headings: Grant Name, Submission Date, Approval Date, Implementation

a   Date, Document or Grant #, Grant Purpose, Grant Length, Grant Amount, and Grant Curators. Though the
    document does not list any NSF grants, it does list federal grants from "NOAA" (National Oceanic and Atmospheric
    Administration) and the "Department of the Navyn.
    He claimed that he gave the document to only one person in October 1995.

                ,o created a fictitious research institute called the "Paleontology Research hstitute"
    or "PRI", and used this to further his impersonation of an NSF program officer.
    claimed that he created PRI before he started to impersnnstp a n YSF program officer DUL ula'
    gradually he incorporated PRI into his impersonation.                  confirmA      DQT exists in
    name only and that he has filed no incorporation, licensing, or tax paperr               could not
    exnlain why he attached the NSF name to that of PRl's in certain documents" I showed him.
              sdmitted that he went as far as to create a Federal Express shipping account in the name
    or YKL and that he gave fossils, stenciled with PRI's name, to his friends."

    While living at                                                                   )laced a 8% x 11"
    sign in his front window with the NSF seal and name. He claimed he could not remember when
    he placed the sign in the window, but it was within the last year and he removed and discarded
    the sign approximately one month after he had put it up. He confirmed that he did not have
    authorization from NSF tn !his and stated that he reproduced the sign from a page he saw in an
    NSF publication               )uld not provide a rationale for placing this sign in his window.

    In addition            admitted to designing and producing one T-shirt, bearing the NSF ~ ~ ~2n r 1l
    name and a picture of a dinosaur, and immediately giving this T-shirt to his girlfrienr
    could not remember when he produced the shirt but ex~lainpdthat he used this to runner his
    impersonation of an NSF program officer. Thougl            /    '-;mc  tn have produced only one

    shirt, the complainant in this case has claimed to l l o ~bet
                                                               ~            2 wear a similar shirt (in
    public) on several occasions.

    Furthermore, a witness alleged that, in August 195             asked her to produce a business
    card with the NSF name, his name, and the title "Senior Paleontologist". The witness further
    claimed + h t she made only two copies of this business card and, after she gave them to
               she never saw the cards again.I6 The witness was unable to provide us with copies of
    ulcse cards, an            Las denied having them produced.



    l4 Specifically: his resume, a letter addressed t                     a grant guide, and a letter regarding his supposed
    security clearance [see Attachment 31.

                  :stated that he purchased sever;.! *---:I- -..--the past year (he stated he could not recall how many) from
    me ulscovery Channel Store in Atlanta, GA.                   said that he occasionaIly gave these fossils as gifts to his
    friends but that, before giving away these fos~la,I ~ Cwould use 3 hl-rG        *ip marker to mark them with numbers (to
    catalog them in his own collection) and the letters "PRI". Thouc                 :refused to admit to that he used this to
    further his impersonation, both the complainant and a witness                          , claimed these fossils were from
    paleontology digs he was working on.

    I6 The witness made these business cards on a computer :                            :r, where both her ar
@   were employed at the time.
    Final               acknowledged that he had            --     electronic address book listing the
                                                            in h i ~

    office, car, and home telephone numbers for                    te, the current Director of NSF.
                   :he fabricated these telephone numbers and that he created this listing so that, if
                -    address book, they would be impressed with his NSF connections. In addition,
                  1 several entries listing bogus telephone numbers for various components of the
    fictitious PRIINSF organization.


    VI.
    -       Recommendations

                 as clearly violated several federal statutes. Though no parties have suffered any direct
    financial loss as a result c                - misrepresentation, his actions are still egregious. He went
    to such a great extent LU L U I I V ~ I I G C people of his false identity (i.e. the creation of false
    identification and other documents), that he transcended exaggerating his real station in life and
    acted upon his delusions."

                  .tern of behavior is relevant to this case. Most striking is the fact that
    currently on probation for a first degree forgery conviction in the State of Georgia.
    was arrested on July 8, 1992 for attempting to cash checks he had stolen from his roommate [see
    Attachment 41 and was subsequently sentenced on October 8, 1992.                    s sentence was a
    $400 fine, 40 hours of community service, and probation until OC~UUGI        0 , ,736 (However, his

    probation has been extended until March 18, 1997 because of his failure to appear at designated
    meetings with his probation officer). '*

8   In addition, on October 5, 1993, thc                                                ly sent a letter
    I             's probation officer demanding tha            cease misleading people about being
    ~ I ~ ~ ~ ..
               ~ --h   ~ , organization [see Attachment 51.
                  u Ltheir                                  Attached to the letter was a business card
    bearing the company name and logo and                    name. how eve^,                ,enied any
    knowledge of this incident [see Attachment 11.

    In conclusion, because of             zxtreme efforts to impersonate an NSF program officer and
    his pattern of assuming false identities, we recommend that the United States Attorney bring
    criminal charges agains,            Jr violating 18 U.S.C. $$ 701, 912, and 1017. In addition,
                                   --
    we believe the U.S. A t ~ v q          ogordinate these efforts with the Georgia State Probation
    Office to affect the future c           current probation.




    "
        Medical documents provided to us by the State of Georgia Probation Office indicate that, since 1992, ?
    has twice been committed to the Georgia Regional Hospital at Atlanta, where he has been diagnosed as being matllc
    depressive ("Bipolar disorder not otherwise specified"), potentially having a personality disorder, and having a hard
    time distinguishing fact from fiction.

                   is also on probation in Georgia for an unrelated Simple Battery conviction [see Attachment 41 . The
    duration or tnis probation is from August 18, 1995 until August 18, 1996.
I   VII.   Attachments

           (1)    NSFOIG Report of Interview Wit                  ,e
           (2)    10 Affidavits Signed by
           (3)    Affidavit Exhibits 1nitiila o
                  Police Records r -I-'-' '-A -'----
                                                 '
           (4)
            (5)   Letter From thf                      Regarding Misrepresentationsby
